 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

 Opportunities to Strengthen Internal
  Controls Over Improper Payments

                      Final Report No.BSD-16186-0001/July 2005



                             PUBLIC
                             RELEASE

                 Office of Audits, Business & Science Division
U.S. Department of Commerce                                                Report BSD-16186-5-0001
Office of Inspector General                                                              July 2005
           program payments and $10 million), the legislation requires further analysis and
           reporting.

      2. The National Defense Authorization Act for Fiscal Year 2002 3 requires that agencies
         entering into contracts valued in excess of $500 million in a fiscal year identify and
         recover any erroneous payments made to contractors.

In Fiscal Year 2003, NOAA submitted to the Department’s Office of Financial Management an
erroneous payment risk assessment in which it concluded that it has controls in place to mitigate
having large numbers of erroneous payments. As a result, the agency did not see a need for
replacing its current controls for detecting improper payments with new systems and reporting
requirements, but the risk assessment did identify a need for improved oversight of the payments
process because of erroneous payments due to error by a payment technician. Also, in Fiscal
Year 2004, NOAA began providing quarterly data on erroneous payments to the Department,
which, together with input from other bureaus, was used to assess the level of such payments
Department-wide.

NOAA processes its payments and those of other Commerce bureaus through the NOAA
Finance Office in Germantown, Maryland, and its four administrative support centers (ASCs),
located in Norfolk, Virginia; Kansas City, Missouri; Boulder, Colorado; and Seattle,
Washington. Payment processing responsibilities include, among others, auditing vouchers,
entering accounting data into the Commerce Business System, correlating payments with U. S.
Department of the Treasury Disbursing Offices, and resolving payment-related problems.
NOAA processes financial documents in the Commerce Business System. The Finance Office
coordinates ASC financial activities and establishes and ensures the adequacy of financial
management policies, systems, procedures, and internal controls.

Objectives, Scope, and Methodology

We conducted an audit of payments made by the NOAA Finance Office during Fiscal Year 2003
on its contracts and purchase orders to (1) determine whether it made significant improper
payments and (2) assess the effectiveness of its internal controls to prevent, detect, and correct
improper payments. We assessed the reliability of computer-generated Commerce Business
System disbursement and refund data for purchase orders and contracts by tracing all items
selected for audit to supporting payment and refund documents in vendor files.

We used the following methodology:

      •    Review of federal laws, regulations, guidance, policies, and procedures. We
           examined the following federal laws, regulations, guidance, policies, and procedures that
           provided background relevant to improper payments: Improper Payments Information
           Act of 2002 and Office of Management and Budget Memorandum M-03-13, (5/21/03);
           the National Defense Authorization Act for Fiscal Year 2002; General Records Schedules
           of the National Archives and Records Administration (44 USC 3303); GAO’s Standards

3
    Public Law No. 107-107, 115 Stat. 1012, Section 831, p. 1186 (2001).


                                                          2
U.S. Department of Commerce                                                     Report BSD-16186-5-0001
Office of Inspector General                                                                   July 2005
          for Internal Control in the Federal Government 4 ; OMB Circular A-123, Management
          Accountability and Control 5 ; the Department of Commerce’s Cash Management Policies
          and Procedures Handbook; the Commerce Acquisition Manual; NOAA’s Cashier’s
          Handbook and Organization Handbook; and guidelines and policy and procedure
          memoranda for VISA convenience checks.
      •   Examination of relevant documents. We analyzed NOAA purchase orders, contracts,
          invoices, receiving reports, and other payment file documents; Fiscal Year 2003
          Erroneous Payment Risk Assessment; Fiscal Year 2004 quarterly erroneous payments
          data; and written responses to our questions concerning improper payments.
      •   Interviews. We spoke with officials and staff at NOAA’s Finance Office, Central
          Administrative Support Center (CASC), Western Administrative Support Center
          (WASC), and program offices, and at the Department’s Office of Financial Management.
      •   Audit Sampling and Review of Refund Data. We selected a judgmental sample of
          1,650 payments totaling $11.7 million, made under purchase orders and contracts and
          processed by the Finance Office during Fiscal Year 2003 (see Table I). For each sampled
          payment, we examined the supporting voucher file, which contained the purchase order
          or contract, vendor invoice, receiving report, payment log, and related documents. When
          appropriate, we also spoke with the accounting technician who processed the payment.

                                                         Table I
                                 Audit Sample of Fiscal Year 2003 NOAA Finance Office
                                         Purchase Order and Contract Payments
      Payment             Population                                      Audit Sample
       Type           Amount         Numbers             Amount         Percent      Numbers    Percent
      Purchase
                    $60.7 million         6,408        $5.9 million        10           1,123     18
       Orders

     Contracts      273.8 million         3,979        5.8 million         2            527       13

       Totals      $334.5 million         10,387      $11.7 million        4            1,650     16


          We also reviewed (1) Fiscal Year 2003 Commerce Business System data and supporting
          documentation for 30 vendor refunds, totaling $80,106, received by the Finance Office
          and the ASCs in order to identify improper payments, and (2) documents related to
          improper payments from Fiscal Years 1999, 2001, 2002, and 2004 that we identified
          during our review of Fiscal Year 2003 vendor files. We included these additional
          improper payments with the results from our review of Fiscal Year 2003 payments (see
          Table II).

We performed our fieldwork from August 2003 to September 2004 at NOAA’s Finance Office in
Germantown, Maryland, and at its headquarters in Silver Spring, Maryland. We conducted our
review in accordance with generally accepted government auditing standards and under the
authority of the Inspector General Act of 1978, as amended, and Department Organization Order
10-13, dated May 22, 1980, as amended.

4
    Reissued in November 1999.
5
    Revised June 21, 1995.


                                                        3
U.S. Department of Commerce                                                       Report BSD-16186-5-0001
Office of Inspector General                                                                     July 2005
NOAA should consider opportunities to strengthen controls over its payments process for
purchase orders and contracts

We found that NOAA’s Finance Office generally has effective internal controls to prevent,
detect, and correct improper payments made on contracts and purchase orders and hence does
not make a significant number or dollar amount of such payments. We identified only 68
improper payments from a total of 1,680 payments reviewed (1,650 sampled payments and 30
vendor refunds) totaling roughly $99,000. We recognize that internal controls over improper
payments should—and we believe the Finance Office’s do—provide reasonable assurance that
agency objectives are being met. Nevertheless, we also believe that NOAA should be aware of
the events or circumstances surrounding the improper payments identified to afford it the
opportunity to take whatever actions that it deems are appropriate, based on costs and expected
benefits, to strengthen internal controls.

Responsibilities for agency internal controls and proper disbursements are delineated by federal
and Department requirements. The GAO’s Standards for Internal Control in the Federal
Government and OMB Circular A-123, Management Accountability and Control, require that
agencies continually assess, evaluate, and strengthen their internal controls to assure
accountability and proper stewardship of federal resources. The Department’s Cash
Management Policies and Procedures Handbook 6 requires that an authorized official certify all
invoices as legal and proper for payment, and describes prepayment audits of invoices as a
means for officials to exercise effective control over disbursements.

Before invoices are certified for payment, NOAA accounting technicians process them for
payment through the Commerce Business System and then designated accountants, financial
payment specialists, or supervisors conduct prepayment audits. 7 Prepayment audits are intended
to ensure that payments have the required administrative authorizations, are legal, made in
accordance with the terms of the applicable agreement, are for the correct amount and payee, use
proper forms or electronic approval procedures, and comply with the Prompt Payment Act.
Invoices not approved for payment are returned to the technician for resolution. Despite this
preventive control, 66 (97%) of the 68 improper payments (see Table II, next page) we identified
were attributable to processing errors by accounting technicians that should have been
intercepted during the prepayment audit, but were not. A listing of the 66 improper payments
identified, along with related details, was previously provided to NOAA officials.

NOAA program offices and contracting officer’s technical representatives (COTRs) also play an
important role in the payments process. The offices issue purchase orders and contracts for
goods and services and COTRs review and recommend approval of invoices. Per the Commerce




6
 Chapter 4, Sections 5.03a and b.
7
 During Fiscal Year 2003, the bureau initiated prepayment audits by such designated individuals at the Finance
Office. Before this time, certifying officers would have conducted any such audits.


                                                        4
U.S. Department of Commerce                                                                                    Report BSD-16186-5-0001
Office of Inspector General                                                                                                  July 2005

                                                                   Table II
                                    Improper Payments Not Intercepted by NOAA’s Prepayment Audits
                                                              Organization Responsible/Number of Improper Payments and
                                                                               Overpayment Amounts3/
                                                             NOAA Finance
                                                                                CASC1/       WASC2/            Total
                                                                 Office
        Description of Error




                               Duplicate payment              8/$34,3594/                   2/$6,740        10/$41,099
                               Wrong vendor or invalid
                                                                4/39,127        4/$3,930                     8/43,057
                               amount paid
                               Disregarding services outside
                                                                41/9,806                                     41/9,806
                               performance period
                               Inadequate invoice support        1/164          3/1,260                      4/1,424
                               Other                                    1/685/                               2/546/       3/122
                               Totals                                55/$83,524              7/$5,190      4/$6,794    66/$95,5087/
        1/
                  CASC – Central Administrative Support Center
        2/
                  WASC – Western Administrative Support Center
        3/
                  All invoices relate to purchase orders, unless otherwise noted.
        4/
                  2 invoices, totaling $27,882, relate to a contract.
        5/
                  Unexplained overpayment of invoice total.
        6/
                  Improper payment of Prompt Payment Act interest penalty.
        7/
                  Fiscal year in which overpayments made:                               Amount    No. of Payments
                                                                         1999            $21,734          1
                                                                         2001               6,568         2
                                                                         2002               3,993        25
                                                                         2003              63,117        37
                                                                         2004                  96         1
                                                                      TOTALS             $ 95,508        66




Acquisition Manual, 8 contracting officers delegate authority to COTRs to manage and oversee
certain aspects of contracts to ensure the contractor’s performance meets the contract’s
standards, technical requirements, and timeframes at the stipulated price or within the estimated
cost. Once approved, invoices are sent to the Finance Office or an ASC for payment, as
appropriate. When properly exercised, the COTR’s duties help prevent improper payments. We
identified two improper purchase order payments, made in Fiscal Year 2003, that relate to
erroneous actions by the COTR ($3,174). These payments, along with related details, were
included in the listing provided to NOAA officials.

While the improper payments identified in our limited sample did not reflect serious oversight
lapses, the related control weaknesses, if not corrected, leave NOAA susceptible to improper
payments that may go undetected by the bureau and the vendor or may be detected only by a
vendor who does not make unsolicited refunds. As noted earlier, NOAA’s risk assessment,
although low, did identify a need for improved oversight of the payments process because of
erroneous payments due to error by a payment technician. We point out the 68 improper
payments identified in our audit so that NOAA may, pursuant to OMB Circular A-123, act
proactively, based on costs and expected benefits, to prevent future problems.



8
    Part 13.01, Section 2, #2: “Definitions.”


                                                                                    5
U.S. Department of Commerce                                                       Report BSD-16186-5-0001
Office of Inspector General                                                                     July 2005
NOAA should comply with federal and Department records retention requirements

The Department’s Cash Management Policies and Procedures Handbook 9 requires the heads of
payment offices to ensure that payment-related records or vouchers are retained for specified
periods 10 (typically 6 years and 3 months) and are available for review by the Department’s
Inspector General and the Government Accountability Office. GAO’s Standards for Internal
Control in the Federal Government states that “Internal control and all transactions…need to be
clearly documented, and the documentation should be readily available for examination…. All
documentation and records should be properly managed and maintained.” We found that NOAA
does not systematically maintain such documentation and is therefore not in compliance with
related federal regulations.

NOAA’s Finance Office did not maintain certified copies of the Commerce Business System’s
PM101A report. The PM101A report is a key payment certification document that the
prepayment auditor uses to identify, review, and certify for payment each purchase order
voucher processed by accounting technicians. Prepayment auditors verify their review by
certifying on the PM101A report that supporting vouchers have been examined and the listed
amounts are correct and proper for payment. The PM101A reports also contain information that
the Finance Office may need to resolve issues, evaluate personnel, and conduct other essential
operations, and that the government may need to protect and support its interest in any litigation
that may arise. Therefore, these reports are subject to federal and departmental records retention
requirements of 6 years and 3 months, and NOAA must maintain them for that period of time.

We attempted to obtain the certified reports that support the purchase order payments in our
Fiscal Year 2003 judgmental sample, but learned that they had been discarded because,
according to a Finance Office official, they were not considered official records subject to
federal retention requirements. As a result, we could not confirm that prepayment auditors had
reviewed and certified accounting technicians’ purchase order vouchers as correct and proper for
payment.

NOAA needs to strengthen its reporting of erroneous payments

To comply with reporting requirements of the Improper Payments Information Act, the
Department asked all bureaus to report erroneous payment data quarterly, beginning in Fiscal
Year 2004. NOAA’s method for compiling this data does not capture the universe of potential
erroneous payments. Therefore, the bureau cannot provide assurance that its estimates of
erroneous payments are reasonable or that it is safeguarding government assets and effectively
protecting public resources.

NOAA’s quarterly reports are drawn from Commerce Business System data on NOAA-
generated refund requests to vendors, its receipt of these amounts, and its receipt of refunds
identified solely by the vendor and voluntarily returned. Unaccounted for are erroneous

9
 Chapter 4, “Disbursements,” Section 4.0, “Responsibilities.”
10
  The Department’s requirement is based on the retention period specified in General Records Schedule 6,
Accountable Officers’ Accounts Records, issued by the Archivist of the United States under the authority of 44 USC
3303a(d). NOAA’s May 2003 Erroneous Payment Risk Assessment also stipulates this time frame.


                                                        6
U.S. Department of Commerce                                                       Report BSD-16186-5-0001
Office of Inspector General                                                                     July 2005
payments that both NOAA and vendors miss, or that only vendors identify but do not voluntarily
refund. NOAA has no control procedure for determining or estimating such amounts.

We discussed this problem with a Finance Office official, who stated that NOAA recognizes the
need to capture missed improper payments and plans to implement changes in Fiscal Year 2005.
We believe these changes should include post-payment audits of vouchers or other periodic tests
of internal controls, such as internal control reviews, to enable NOAA to estimate the incidence
and amounts of unidentified erroneous payments.

Recommendations

The Under Secretary for Oceans and Atmosphere should ensure that:

        1. NOAA reviews the events or circumstances surrounding the OIG-identified improper
           payments and takes the action that it deems appropriate, based on costs and expected
           benefits, to strengthen the bureau’s internal controls over its payments process for
           purchase orders and contracts.

        2. NOAA’s Finance Office complies with federal and Department requirements for
           retaining all payment-related records, i.e., its certified Commerce Business System
           PM101A reports, for the required 6 years and 3 months.

NOAA Response

NOAA concurs with recommendations 1 and 2 but does not concur with recommendation 3 11 ,
which was originally included in our draft report. Regarding recommendation 1, NOAA said it
reviewed the events or circumstances surrounding the OIG-identified improper payments and
will take action based on costs and benefits to strengthen its internal controls over payment
processes. With respect to recommendation 2, NOAA responded that the certified PM101A
reports are now being retained in compliance with retention requirements. Concerning
recommendation 3, NOAA believes that its automated and manual internal controls upfront
during the payment process are more cost effective than after-the-fact reviews for identifying
erroneous payments. It cites specific examples of both types of controls and states that our
sampling and that by the Department’s Office of Financial Management support its belief.

NOAA also recommended two changes to our draft report. First, it stated in its response that our
reference to the Commerce Administrative Management System (CAMS) should be the
Commerce Business System (CBS). Second, it asserted that the $8,000 expenditure that we
included in Table II of our report because NOAA used the wrong payment method 12 is not an
improper payment. NOAA explained that the correct vendor was paid and that the method of

11
   Recommendation #3: The Under Secretary for Oceans and Atmosphere should ensure that NOAA strengthens its
reporting of erroneous payments by implementing post-payment audits or other periodic internal control reviews of
vouchers to identify and report erroneous payments that it does not routinely recognize through solicited and
unsolicited refunds.
12
   NOAA paid an invoice for services to a foreign vendor by check rather than electronically, as required by U. S.
Department of the Treasury regulations.


                                                        7
U.S. Department of Commerce                                           Report BSD-16186-5-0001
Office of Inspector General                                                         July 2005
disbursement, via a check or electronic payment, is not a factor in identifying an improper
payment. It recommended that the $8,000 expenditure be removed from Table II. NOAA’s full
response is included as Attachment I to this report.

OIG Comments

NOAA’s reply is responsive to our recommendations 1 and 2. We have removed
recommendation 3 because we believe that the automated and manual internal controls, both
current and proposed, for identifying the universe that NOAA cites in its response should
function as effective compensating controls to prevent, detect, and correct improper payments.
The intent of our recommendation to implement post-payment audits of vouchers was to ensure
that NOAA’s reporting of erroneous payments to the Department is reasonable and captures the
universe of potential erroneous payments. NOAA’s compensating controls meet that intent.
NOAA should continue to use these controls to strengthen its reporting process for erroneous
payments. While we feel these controls are adequate, in accordance with the Office of
Management and Budget’s Circular A-123, Management Accountability and Control 13 , which
calls for continuous monitoring of controls, NOAA should test or verify the effectiveness of
these controls at the end of Fiscal Year 2005 to ensure that they are functioning as designed.

We agree with NOAA’s two recommended changes to our draft report. We have replaced all
references to the Commerce Administrative Management System (CAMS) with the Commerce
Business System (CBS). Also, we have removed the $8,000 expenditure from Table II because
it is not an improper payment. However, we call NOAA’s attention to U. S. Department of the
Treasury regulations that address the management of federal agency disbursements. 14 These
regulations state that “Subject to Section 208.4, and notwithstanding any other provision of law,
effective January 2, 1999, all (emphasis ours) Federal payments made by an agency shall be
made by electronic funds transfer.” 15 We reviewed the eight cases specified in Section 208.4,
“Waivers,” in which payment by electronic funds transfer is not required, but concluded that
none applied. Clearly, NOAA should have made the payment electronically, as required by
Treasury regulations. Nevertheless, this isolated occurrence does not impact our overall
conclusion that the NOAA Finance Office’s internal controls over improper payments on
contracts and purchase orders are generally effective and provide reasonable assurance regarding
the prevention, detection, and correction of such payments.

As required by DAO 213-5, please provide us an audit action plan addressing recommendation
#3 within 60 days of this memorandum. The format for the plan can be found in Exhibit 7 of the
DAO. Should you need to discuss the contents of this report or the audit action plan, please call
me at (202) 482-1577, or Ronald Lieberman, Director, Business and Science Division, at (202)
482-2689.

We appreciate the cooperation and courtesies your staff extended to us during our review.



13
     Revised June 21, 1995.
14
     31CFR208.
15
     31CFR208.3.


                                                8
U.S. Department of Commerce                                        Report BSD-16186-5-0001
Office of Inspector General                                                      July 2005
cc:   William T. Hogarth, Ph. D.
      Assistant Administrator, National Marine Fisheries Service

      R. J. Dominic
      Director/Comptroller
      NOAA Finance Office

      Mack A. Cato
      Director, Audit, Internal Control, and Information Management Office




                                             9
